                              Report Template Version = 03-01-05_rev.07




Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





CHIROPRACTIC SERVICES IN THE

    MEDICARE PROGRAM: 

     PAYMENT VULNERABILITY ANALYSIS




                     Inspector General

                       June 2005
                     OEI-09-02-00530
                                                          Report Template Version = 03-01-05_rev.07




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts management and
program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
                                                                                  Report Template Version = 03-01-05_rev.07




∆   E X E C U T I V E                      S U M M A R Y


                  OBJECTIVE
                  To determine the underlying causes of, and potential ways to reduce,
                  vulnerabilities associated with Medicare payments for chiropractic
                  services.


                  BACKGROUND
                  In 1972, Congress passed Public Law 92-603, which amended section
                  1861(r) of the Social Security Act (the Act) to define chiropractors as
                  physicians who are eligible for Medicare reimbursement, but only for
                  manual manipulation of the spine to correct a subluxation, or
                  malfunction of the spine. Federal regulations (42 CFR § 410.21(b))
                  further limit Medicare payment to treatment of subluxations that result
                  in a neuromusculoskeletal condition for which manual manipulation is
                  appropriate treatment. In addition to these specific provisions, sections
                  1862(a)(1)(A) and 1833(e) of the Act require that all services billed to
                  Medicare, including chiropractic manipulations, be medically necessary
                  and supported by documentation.

                  The Medicare Carriers Manual (the Manual) outlines additional
                  coverage criteria for chiropractic services billed to Medicare.1 Pursuant
                  to section 2251.2 of the Manual, the existence of a subluxation must be
                  documented through an X-ray or physical examination and chiropractic
                  services must be provided as part of a written plan of care that should
                  include specific goals and measures to evaluate effectiveness. Section
                  2251.3 of the Manual states that chiropractic treatment “. . . must
                  provide a reasonable expectation of recovery or improvement of
                  function.” The same Manual section states that “. . . ongoing
                  maintenance therapy is not considered to be medically necessary under
                  the Medicare program,” and is therefore noncovered.

                  Chiropractic has experienced considerable growth in Medicare, from
                  11.2 million services and $255 million allowed in 1994 to 21 million
                  services and $683 million allowed in 2004. In previous studies,
                  published in 1986, 1998, and 1999, the Inspector General found that a



                    1 At the time of our study, the references to the Medicare Carriers Manual were accurate.
                  The Centers for Medicare & Medicaid Services has since moved to web-based manuals. The
                  Carriers Manual sections cited in this report are now found in the Medicare Benefit Policy
                  Manual, Pub. 100-2, Chapter 15, sections 30.5 and 240.



OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   i
                                                                                   Report Template Version = 03-01-05_rev.07




E X E C U T I V E              S U         M M A R Y


                   significant vulnerability existed in connection with chiropractic services,
                   particularly concerning maintenance care.2
                   To gain a deeper understanding of the underlying causes of these
                   vulnerabilities and ways to reduce them, we selected a simple random
                   sample of 400 Medicare services (total allowed amount = $12,638.38)
                   submitted by chiropractors and allowed in 2001. We contracted with
                   practicing chiropractors who reviewed each service according to a
                   standard protocol, which was based on Medicare coverage guidelines
                   and requirements. The review instrument solicited information about
                   the beneficiary’s chiropractic treatment as a whole and about the
                   individual sampled service in particular. This enabled the reviewers to
                   determine if the services billed to Medicare were covered, coded
                   correctly, and properly documented. In particular, it enabled the
                   reviewers to determine the extent to which payments were made for
                   maintenance services, which are not covered under Medicare. Based on
                   the results of this review, we also determined the likelihood of services
                   being noncovered depending on the number of services billed per
                   episode of care. Knowing this, Medicare carriers can make informed
                   choices regarding the level of effort to expend in reviewing questionable
                   billings based on billing patterns.

                   Because we only reviewed services provided by chiropractors in 2001,
                   our sample results cannot be extrapolated to other periods. Accordingly,
                   we make no inferences to chiropractic error rates in subsequent years.


                   FINDINGS
                   Maintenance services were the most common type of noncovered
                   chiropractic services that Medicare paid for in 2001. Medicare
                   carriers routinely deny all chiropractic claims that do not carry a code
                   for spinal manipulation, which is, by law, the only treatment for which
                   chiropractors may be reimbursed. Our medical reviewers found that
                   although billed with an allowable code, 57 percent of these services did
                   not meet Medicare coverage criteria (i.e., were noncovered). In addition,
                   16 percent were miscoded or billed at the wrong level of spinal
                   manipulation, and 6 percent were undocumented. Twelve percent had



                     2 Utilization Parameters for Chiropractic Treatments (OEI-04-97-00496), Chiropractic
                   Care: Controls Used by Medicare, Medicaid, and Other Payers (OEI-04-97-00490), and
                   Inspection of Chiropractic Services under Medicare (OAI-05-86-00002).



 OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   ii
                                                                                   Report Template Version = 03-01-05_rev.07




E X E C U T I V E              S U         M M A R Y


                   multiple errors, yielding an overall error rate of 67 percent, resulting in
                   $285 million in improper payments.

                   Medical reviewers determined that the majority of inappropriately paid
                   services were maintenance treatments ($186 million in allowed
                   payments), which Medicare defines as medically unnecessary, and are
                   therefore not covered. Another 14 percent ($65 million) were found to
                   be medically unnecessary for other reasons. Medicare also allowed
                   $24 million for services billed with a spinal manipulation code that were
                   actually extraspinal manipulations or non-manipulative treatment,
                   such as massage. Apart from coverage issues, upcoding was also a
                   significant problem, resulting in a $15 million overpayment.
                   Supporting documentation for chiropractic services rarely met all
                   Medicare Carriers Manual requirements. The Manual requires that
                   specific supporting documentation be present in the chiropractic record.
                   Nearly 94 percent of chiropractic services, though, lacked at least one of
                   the supporting documentation elements listed in section 2251.2 of the
                   Manual (including those that were completely undocumented). The lack
                   of one or more of these elements did not automatically lead us to
                   conclude a service was noncovered, although these determinations were
                   often related. For instance, 34 percent of chiropractic services were not
                   supported by an evaluation that met the Manual’s specific requirements
                   for documenting a subluxation. Most, but not all, of these services were
                   also determined to be noncovered.
                   Lack of medical necessity is directly related to service volume. As
                   chiropractic care extends beyond 12 treatments in a year, it becomes
                   increasingly likely that individual services are medically unnecessary.
                   The likelihood of a service being medically unnecessary increases even
                   more significantly after 24 treatments. Accordingly, identifying and
                   carefully scrutinizing services beyond a certain frequency threshold
                   could result in significant savings. Although frequency-based controls
                   are common among carriers and in the private sector, the Centers for
                   Medicare & Medicaid Services (CMS) does not have a national policy
                   addressing their use.
                   Carrier controls to prevent overutilization are inconsistent.
                   Although all carriers have some mechanisms to prevent and recoup
                   improper payments for chiropractic services, a significant vulnerability
                   surrounding this benefit persists.




 OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   iii
                                                                                   Report Template Version = 03-01-05_rev.07




E X E C U T I V E              S U         M M A R Y 




                   RECOMMENDATIONS
                   Based on the volume of medically unnecessary, undocumented, and
                   noncovered services allowed, chiropractic services represent a
                   significant vulnerability for the Medicare program. Therefore, we
                   recommend that CMS take the following actions:
                   Ensure that chiropractic services comply with Medicare coverage
                   criteria. CMS should require that its carriers or Program Safeguard
                   Contractors conduct service-specific reviews of chiropractic services to
                   identify improper payments. CMS should also implement national
                   frequency-based controls to target high-volume services for review, since
                   our medical review identified a strong correlation between high service
                   volume and lack of medical necessity. When conducting reviews of
                   individual providers, it is imperative that reviewers collect the entire
                   records associated with services selected as part of a service-specific
                   review. Several records we reviewed would have appeared legitimate
                   for any one particular day of service; however, that day’s documentation
                   was repeated verbatim for the entirety of the patient’s treatment.
                   Require that its carriers educate chiropractors on Medicare Carriers
                   Manual requirements for supporting documentation. Many
                   chiropractors seem unaware of the specific documentation requirements
                   outlined in the Manual. CMS should address this lack of knowledge by
                   directing its carriers to issue provider bulletins reminding chiropractors
                   of their responsibilities.
                   In addition to these recommendations, we have forwarded information
                   on the noncovered, miscoded, and undocumented services identified in
                   our sample to CMS for appropriate action.


                   AGENCY COMMENTS AND OIG RESPONSE
                   In its comments on our draft report, CMS agreed with our findings and
                   recommendations. The agency has clarified its chiropractic coverage
                   criteria and indicated that most carriers are taking steps to reduce
                   chiropractic error rates, including targeted educational efforts and
                   service-specific medical reviews. In addition, as of October 1, 2004,
                   CMS has required that chiropractors use the –AT modifier to indicate
                   that a service is not maintenance; only claims to which this modifier is
                   attached are payable.




 OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   iv
                                                                                   Report Template Version = 03-01-05_rev.07




E X E C U T I V E              S U         M M A R Y


                   We appreciate CMS’s response to our report, and support the steps the
                   agency is currently undertaking to help prevent paying for noncovered,
                   miscoded, and undocumented services.

                   CMS noted in its comments that while this Office of Inspector General
                   (OIG) study projected that 67 percent of the chiropractic services
                   allowed by Medicare did not meet program requirements, CMS’s
                   Comprehensive Error Rate Testing (CERT) program identified a claims
                   paid error rate of approximately 16 percent for claims submitted by
                   chiropractors in 2002. CMS further noted that differences in the
                   methodological approaches accounted for the significantly different
                   rates. CMS recognized that OIG’s review of a beneficiary’s entire course
                   of treatment enabled us to determine that approximately 40 percent of
                   all chiropractic services are attributable to maintenance care, and thus
                   are not covered under Medicare. In contrast, the CERT paid claims
                   error rate is based on a review of a single claim, which limits its ability
                   to detect uncovered maintenance costs.

                   We agree with CMS and would like to emphasize that the purpose of
                   this inspection was to determine the underlying causes of, and potential
                   ways to reduce, vulnerabilities associated with payments for
                   chiropractic services. It was not designed to reproduce, or to review, the
                   CERT paid claims error rate. In addition to the different
                   methodological approaches that are noted above, the CERT used 2002
                   data, whereas our data was drawn from 2001. Hence, our results
                   cannot be compared directly to the CERT program results.

                   Furthermore, chiropractic payment errors, while a significant
                   vulnerability, contribute only minimally to the overall CERT national
                   paid claims error rate. Medicare allowed approximately $191 billion for
                   Medicare fee-for-service claims in 2001. Chiropractic services accounted
                   for $500 million, or 0.26 percent of this amount. Therefore, the
                   chiropractic-specific error rate has minimal influence on the overall
                   CERT error rate for fee-for-service claims.

                   Given that Medicare payments for chiropractic services have continued
                   to increase since 2001, the need for a more effective way to eliminate
                   inappropriate maintenance payments is crucial. We recognize that it
                   may not be practical for the CERT program to expend its limited
                   resources to collect the extensive documentation that we used in our
                   review. Therefore, in the future, CMS may wish to conduct additional
                   studies outside the scope of the CERT program to determine cost-
                   efficient ways to address chiropractic payment errors.

 OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   v
                                                                             Report Template Version = 03-01-05_rev.07




∆   T A B L E            O F             C O N T E N T S



         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                     Noncovered and miscoded services . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                     Supporting documentation deficient . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                     Medical necessity linked to frequency . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                     Carrier controls inconsistent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

                        A.	 Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 


                        B.	 Further Discussion of the Effects of Removing the X-ray 

                            Requirement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                        C. Confidence Intervals for Selected Statistics. . . . . . . . . . . . . . . 27 


                        D. Significance Tests for Selected Comparisons . . . . . . . . . . . . . . 30 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

                                                                                  Report Template Version = 03-01-05_rev.07




∆   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine the underlying causes of, and potential ways to reduce,
                  vulnerabilities associated with Medicare payments for chiropractic
                  services.


                  BACKGROUND
                  Chiropractic: History and Practice
                  According to the American Chiropractic Association, the profession’s
                  largest association, chiropractic is “a form of health care aimed
                  primarily at enhancing a patient's overall health and well-being without
                  the use of drugs or surgery.”3 Central to chiropractic philosophy and
                  practice is the use of manual manipulation to correct a subluxation of
                  the spine. Etymologically, the term “subluxation” simply means a
                  partial dislocation of a joint. Although a single standard definition of
                  subluxation in the chiropractic context does not exist, the term is
                  generally used by chiropractors to describe “a complex of functional
                  and/or structural and/or pathological articular changes that compromise
                  neural integrity and may influence organ system function and general
                  health.”4
                  Chiropractic has established itself and grown as a profession since it
                  was founded in 1895. The practice is now licensed in all 50 States, and
                  at least 16 accredited chiropractic colleges confer Doctor of Chiropractic
                  degrees on their graduates. In 1970, there were approximately
                  13,000 licensed chiropractors in the United States. According to the
                  Bureau of Labor Statistics, that number grew to 50,000 in 2000. Both
                  the Bureau and the American Chiropractic Association predict that the
                  number of chiropractors will continue to increase in the future.

                  Patients most often seek out chiropractors for treatment of back pain,
                  especially low back pain. Low back pain is a pervasive American health




                    3 “Chiropractic: A Rapidly Growing Profession.” Consumers/Media. American

                  Chiropractic Association. Retrieved October 23, 2003,
                  http://www.amerchiro.org/media/growing_profession.shtml.
                    4 “Chiropractic Paradigm.” Association of Chiropractic Colleges. Retrieved October 24,
                  2003, http://www.chirocolleges.org/missiont.html.



OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   1
                                                                                   Report Template Version = 03-01-05_rev.07




I N T R O D 
U C T           I O N


                   problem, from which approximately 31 million citizens suffer at any 

                   given time.5

                   Medicare Coverage of and Requirements for Chiropractic Services
                   General provisions of the Social Security Act (the Act) govern Medicare
                   reimbursement of all services, including chiropractic services. Section
                   1862(a)(1)(A) of the Act states that “. . . no payment may be made
                   [under the Medicare title for services that] are not reasonable and
                   necessary for the diagnosis or treatment of illness or injury or to
                   improve the functioning of a malformed body member.” Section 1833(e)
                   requires that providers furnish “such information as may be necessary
                   in order to determine the amounts due” in order to receive Medicare
                   payment. Related regulations at 42 CFR § 411.15(k) and
                   42 CFR § 424.5(a)(6) implement these provisions of Federal law.

                   On October 30, 1972, Congress passed the Social Security Amendments
                   of 1972, extending Medicare reimbursement to chiropractors, but only
                   for manual manipulation of the spine to correct a subluxation
                   demonstrated by an X-ray.6,7 Federal regulations (42 CFR § 410.21(b))
                   further limit Medicare chiropractic coverage to treatment of
                   subluxations that result in a neuromusculoskeletal condition for which
                   manual manipulation is appropriate treatment. Restricting
                   reimbursement to spinal manipulation means Medicare may pay
                   chiropractors for only three Current Procedural Terminology (CPT)
                   codes: 98940 (Chiropractive Manipulative Treatment; spinal, one t
o two
                   regions), 98941 (three to four regions), and 98942 (five regions). In

                   2001, CPT code 98942 accounted for fewer than 10 percent of the
                   chiropractic services allowed by Medicare, with each of the lower-level
                   CPT codes accounting for approximately 45 percent of the total.

                   The Balanced Budget Act of 1997 removed the X-ray requirement as of
                   January 1, 2000, and instructed the Secretary of the Department of
                   Health and Human Services to establish utilization guidelines for



                     5 Jensen, M., M. Brant-Zawadzki, N. Obuchowski, et al. “Magnetic Resonance Imaging of
                   the Lumbar Spine in People Without Back Pain.” New England Journal of Medicine 1994;
                   vol. 331: 69-116. Cited in: “Back Pain Statistics.” American Chiropractic Association.
                   Retrieved October 24, 2003, http://www.amerchiro.org/media/whatis/benefits.shtml.
                     6 Note that no payment is provided to chiropractors for services other than manual
                   manipulation of the spine; i.e., X-rays and other diagnostic tests are not covered services
                   when performed by chiropractors.
                     7 The chiropractic provisions (section 273) of the Social Security Amendments of 1972
                   modified section 1861(r)(5) of the Act.



 OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   2
                                                                                    Report Template Version = 03-01-05_rev.07




I N T R O D        U C T      I O N 



                    subluxations not evidenced by an X-ray. Guidelines for demonstrating a
                    subluxation are found in section 2251.2 of the Medicare Carriers
                    Manual (the Manual).8 The Manual defines a subluxation as “a motion
                    segment, in which alignment, movement integrity, and/or physical
                    function of the spine are altered although contact between joint surfaces
                    remains intact.” If used, an X-ray generally must be taken between
                    12 months before and 3 months after the start of treatment. A physical
                    examination must identify at least two criteria for treatment, one of
                    which must be asymmetry/misalignment or a range of motion
                    abnormality. The other criterion can be pain/tenderness or changes in
                    the associated soft tissue.

                    No matter how the presence of a subluxation is established, section
                    2251.3 of the Manual stipulates that beneficiaries also must present “a
                    significant health problem in the form of a neuromusculoskeletal
                    condition necessitating treatment, and the manipulative services
                    rendered must have a direct therapeutic relationship to the patient’s
                    condition and provide reasonable expectation of recovery or
                    improvement of function.” Furthermore, section 2251.3 of the Manual
                    states that “. . . [a] treatment plan that seeks to prevent disease,
                    promote health and prolong and enhance the quality of life, or therapy
                    that is performed to maintain or prevent deterioration of a chronic
                    condition is not a Medicare benefit. Once the maximum therapeutic
                    benefit has been achieved for a given condition, ongoing maintenance
                    therapy is not considered to be medically necessary under the Medicare
                    program.” In other words, Medicare covers only treatment of acute or
                    chronic subluxations, not preventive or maintenance care.9 The
                    Manual also lists eight absolute and five relative contraindications
                    regarding manual manipulation of the spine, such as acute fractures of
                    the spine or severe demineralization of the bones. Such conditions
                    preclude the use of or impart significant risk to spinal manipulation.

                    Section 2251.2 of the Manual requires that chiropractors document an
                    initial history of the patient’s complaint and establish a treatment plan.


                      8 At the time of our study, the references to the Medicare Carriers Manual were accurate.
                    The Centers for Medicare & Medicaid Services has since moved to web-based manuals. The
                    Carriers Manual sections cited in this report are now found in the Medicare Benefit Policy
                    Manual, Pub. 100-2, Chapter 15, sections 30.5 and 240.
                      9 Revisions to the Medicare Carriers Manual issued on May 28, 2004, further clarify the

                    definition of maintenance care. Since our inspection focused on services provided in 2001,
                    we cite here the definition effective during that year.



 OEI-09-02-00530    CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   3
                                                                                       Report Template Version = 03-01-05_rev.07




I N T R O D          U C T       I O N


                      The treatment plan should include the expected duration and frequency
                      of the patient’s treatment, specific treatment goals, and objective
                      measures against which to evaluate effectiveness. Though supporting
                      documentation must be kept in the medical record, it need not normally
                      be submitted to the carrier for a claim to be processed and paid.
                      Growth in Medicare Chiropractic Services
                      Medicare reimbursement of chiropractic services has increased
                      dramatically in recent years. In 1994, the program allowed $255 million
                      for 11.2 million services for chiropractic manipulation. By 2004, those
                      numbers had grown to $683 million and 21 million services allowed. As
                      shown in Figure 1, the rate of growth in annual services and dollars
                      allowed has accelerated since the X-ray requirement was lifted in 2000.
                      For a detailed analysis on the effect of removing the X-ray requirement,
                      see Appendix B.


         FIGURE 1
                         $700                                                                                                                           24.0
         Medicare
reimbursement for
  chiropractic has
                         $525                                                                                                                           18.0
grown more rapidly
       since 2000.

                         $350                                                                                                                           12.0


                         $175                                                                                                                           6.0


                            $0                                                                                                                          0.0
                                     1994

                                            1995

                                                    1996

                                                                1997

                                                                           1998

                                                                                       1999

                                                                                                  2000

                                                                                                              2001

                                                                                                                         2002

                                                                                                                                    2003

                                                                                                                                                 2004



                                        Allowed dollars (millions)                                       Allowed services (millions)
                        Source: National Claims History Part B 1 Percent Files, 1994 – 2002

                        and Medicare Part B Extract and Summary System, 2003 - 2004 


                      Prior Inspector General Work
                      In November 1999, the Office of Inspector General (OIG) responded to a
                      request from the Centers for Medicare & Medicaid Services (CMS) to
                      analyze the potential impact of establishing chiropractic utilization
                      review thresholds at either 18 or 12 treatments per year. In Utilization
                      Parameters for Chiropractic Treatments (OEI-04-97-00496), OIG
                      concluded that the proposed thresholds would have saved Medicare
                      $19.4 million and $30.2 million, respectively, in 2000, and that
                      relatively few beneficiaries would be affected by either parameter.

  OEI-09-02-00530     CHIROPRACTIC SERVICES    IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S            4
                                                                                    Report Template Version = 03-01-05_rev.07




I N T R O D        U C T      I O N 



                    Therefore, OIG recommended that CMS institute a national utilization
                    review threshold of 12 services per year. CMS ultimately did not adopt
                    a national frequency threshold and continues to leave the matter to
                    individual carriers’ discretion.

                    In September 1998, OIG released a report entitled Chiropractic Care:
                    Controls Used by Medicare, Medicaid, and Other Payers
                    (OEI-04-97-00490). Based on an analysis of the National Claims
                    History Data File, the OIG estimated that $68 million of the
                    $294 million Medicare spent on chiropractic treatments in 1996 was for
                    chiropractic maintenance treatments.

                    In 1986, OIG released a report entitled Inspection of Chiropractic
                    Services under Medicare (OAI-05-86-00002). OIG found that because of
                    disagreement about the ability of an X-ray to reveal a subluxation, the
                    existing X-ray requirement was not well enforced, might actually have
                    been unenforceable, and was highly conducive to abuse. In addition, the
                    report described a lack of standards within the chiropractic profession
                    and a number of questionable practices. For these reasons, OIG
                    concluded that chiropractic constituted a serious vulnerability to the
                    Medicare program.


                    METHODOLOGY
                    We used multiple methodologies to accomplish our objectives. The
                    primary method was medical review of chiropractic records. We also
                    interviewed carriers, analyzed historical claims data, and accessed
                    external Government data sources. Point estimates with confidence
                    intervals for selected statistics and the results of statistical tests for
                    selected comparisons from the findings are contained in Appendixes
                    C and D, respectively.
                    Medical Review10
                    We defined our universe as 91 percent of services provided by
                    chiropractors in 2001 and allowed by Medicare.11 This universe


                      10 For a more detailed discussion of the medical review methodology, refer to Appendix A.
                      11 A data processing error prevented us from using 100 percent of claims. The original

                    data was contained in five compressed files. We decompressed these files and merged them
                    into a single population data set. However, one of the smaller files failed to read into our
                    population data set correctly, and therefore, contributed far fewer claims than expected to
                    the population. Most of the omitted claims were for beneficiaries with Medicare numbers
                    associated with the Railroad Retirement Board or the State of Massachusetts.



 OEI-09-02-00530    CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   5
                                                                                   Report Template Version = 03-01-05_rev.07




I N T R O D 
U C T           I O N


                   contained 14,497,406 claims with a total allowed amount of
                   $457,444,574.32. To make statistically valid projections of the dollar
                   value of all noncovered, miscoded, or undocumented chiropractic
                   services allowed in 2001, we selected a simple random sample of
                   400 Medicare services from this universe. The total allowed amount in
                   our sample was $12,638.38. We then identified and contacted the
                   chiropractor listed on each claim for service to request records for the
                   beneficiary’s entire course of treatment.12
                   We contracted with practicing chiropractors to review each service
                   according to a standard protocol, which was based on Medicare coverage
                   guidelines and requirements. The review instrument solicited
                   information about the beneficiary’s chiropractic treatment as a whole
                   and about the individual sampled service in particular. This enabled
                   the reviewers to determine if the services billed to Medicare were
                   covered, coded correctly, and properly documented. In particular, it
                   enabled the reviewers to determine the extent to which payments were
                   made for maintenance services, which are not covered under Medicare.

                   The results of our review of the 400 sampled services were not shared
                   with the Medicare carriers who paid the chiropractors for these services.
                   Further, the level of information that we collected would not generally
                   be available to those carriers unless they were to conduct a
                   comprehensive medical review of a particular chiropractor or patient.

                   After completing their review, the contractors returned the completed
                   instruments to us for data entry. We analyzed the medical reviews
                   using the statistical software packages SAS and SUDAAN. For a more
                   detailed discussion of this methodology, see Appendix A.

                   Based on the results of this review, we also determined the likelihood of
                   services being uncovered depending on the number of services billed per
                   episode of care. Knowing this, Medicare carriers can make informed
                   choices regarding the level of effort to expend in reviewing questionable
                   billings based on billing patterns.




                     12 We were unable to contact two chiropractors and removed the two claims associated
                   with these chiropractors from consideration. In addition, the chiropractors identified on
                   four claims failed to respond to our repeated requests for records—these services were
                   considered undocumented.



 OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   6
                                                                                    Report Template Version = 03-01-05_rev.07




I N T R O D        U C T      I O N


                    Because we only reviewed services provided by chiropractors in 2001,
                    our sample results cannot be extrapolated to other periods. Accordingly,
                    we make no inferences to chiropractic error rates in subsequent years.
                    Additional Methods
                    We conducted telephone interviews with all Medicare carriers using a
                    standardized interview guide. We also collected policy guidance that
                    had been issued by each carrier to its provider community. We
                    researched carriers’ Local Medical Review Policies, as well as laws,
                    regulations, and policy, concerning the chiropractic benefit.

                    We reviewed literature from chiropractic organizations and other
                    sources to gather background on chiropractic and help refine our
                    medical review instrument. Information from Government sources,
                    such as the Agency for Healthcare Research and Quality and the
                    Bureau of Labor Statistics, provided background and comparative trend
                    data. Lastly, we collected and tabulated information gleaned from
                    online brochures for Federal Employee Health Benefits Plans.

                    This inspection was conducted in accordance with the Quality
                    Standards for Inspections issued by the President’s Council on Integrity
                    and Efficiency.




 OEI-09-02-00530    CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   7
                                                                                       Report Template Version = 03-01-05_rev.07




∆     F I N D I N G S



Maintenance services were the most common                In 2001, Medicare allowed
type of noncovered chiropractic services that            approximately $457 million for the
                   Medicare paid for in 2001             14.5 million chiropractic services in
                                                         our universe. Based on our medical
                    review, although billed with allowable spinal manipulation codes, 57
                    percent of these services did not meet Medicare coverage criteria (i.e.,
                    were noncovered). An additional 16 percent were miscoded or billed at
                    the wrong level of spinal manipulation, and 6 percent were
                    undocumented. Twelve percent had multiple errors, yielding an overall
                    error rate of 67 percent. Figure 2 groups the improperly paid services in
                    our sample by the type of error and gives statistical projections of these
                    errors to the population.

                    Figure 2: Noncovered and Miscoded Chiropractic Services

                                                                               Sample
                                                                                                                                           Projected
                                                                         (400 Total Services)
                                                                                       Allowed                             Services              Allowed Amount
                    Type of error                                       Services       Amount                           (Proportion)                   (Millions)
                    Noncovered:
                      - Not medically necessary:
                                                                                 161            $5,144.85                             0.40                  $186
                      maintenance
                      - Not medically necessary: other                             57           $1,790.59                             0.14                   $65
                      - Not manual manipulation of the
                                                                                   21              $668.89                            0.05                   $24
                      spine
                      - (Both medically unnecessary
                                                                                 (13)           ($396.95)                          (0.03)                   ($14)
                      and not manipulation of the spine)
                    Total noncovered                                             226            $7,207.38                             0.57                  $261

                    Total coded at wrong level (net)                               64              $410.31                            0.16                   $15

                    Undocumented:

                      - Non-response                                                 3               $89.63                                *                    *

                      - Missing documentation                                      21              $661.78                            0.05                   $24

                    Total undocumented                                             24              $751.41                            0.06                   $27

                    (Overlapping errors)                                         (49)           ($504.17)                          (0.12)                   ($18)

                    Total                                                       265           $7,864.93                              0.67                  $285
                    Source: Medical Review of Year 2001 Services by Practicing Chiropractors. The * indicates the n for that cell is too
                    small to reliably project. Totals may not be equal to the sum of individual rows due to rounding.



                    Noncovered: Not medically necessary. Section 1862(a)(1)(A) of the Act
                    excludes services that are not reasonable and necessary from Medicare
                    coverage. However, 55 percent of the chiropractic services allowed in
                    2001, totaling $251 million, did not meet Medicare criteria for medical

  OEI-09-02-00530   CHIROPRACTIC SERVICES      IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S         8
                                                                                      Report Template Version = 03-01-05_rev.07




F   I N D I N G 
S


                      necessity. Most of these services (74 percent of medically unnecessary
                      services—40 percent overall) were correctly billed as spinal
                      manipulations but met Medicare’s definition of maintenance care—
                      which section 2251.3 of the Manual defines as not medically necessary,
                      and is therefore not covered. In general, the remainder were not
                      medically necessary because they did not bear a therapeutic
                      relationship to the patient’s condition, did not provide a reasonable
                      expectation of recovery or functional improvement, or were provided
                      with excessive frequency or duration.
                      Noncovered: Not manual manipulation of the spine. Section 1861(r)(5) of
                      the Act clearly states that Medicare may reimburse chiropractors only
                      for manual manipulation of the spine. Chiropractors, though, received
                      approximately $24 million from the Medicare program and its
                      beneficiaries in 2001 for services other than manual manipulation of the
                      spine. These chiropractors bypassed Medicare’s coverage limitations by
                      submitting claims with a manipulation code that was allowable but did
                      not match the service actually provided. Documentation for several
                      services showed that the chiropractor actually performed an extraspinal
                      adjustment (e.g., shoulder or knee adjustment) rather than spinal work.
                      Other chiropractors billed non-manipulative treatment, such as muscle
                      work or network spinal analysis, as spinal manipulation. Our medical
                      reviewers, who are practicing chiropractors, noted that some of this
                      treatment was acceptable from a chiropractic standpoint, and may have
                      been beneficial to the patient.
                      Coded at wrong level. Medicare allowed $85 million for spinal
                      manipulations billed for the incorrect number of regions according to
                      the documentation. The net cost to the program, i.e., the amount
                      actually allowed for these services less the amount that would have
                      been allowed if the services had been billed correctly, was $15 million.
                      Coding errors generally involved upcoding, which is billing a more
                      complex and higher-paying service than the one documented in the
                      medical record. Approximately 69 percent of services billed for spinal
                      manipulation on five regions (CPT code 98942) were upcoded, compared
                      to 21 percent of services billed for manipulation on three to four regions
                      (CPT code 98941).
                      Undocumented. Chiropractors did not provide substantiating
                      documentation for approximately 6 percent of the services billed to
                      Medicare. Despite repeated requests, we did not receive the medical
                      records related to three of the chiropractic services in our sample. The


    OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   9
                                                                                           Report Template Version = 03-01-05_rev.07




    F    I N D I N G       S


                          chiropractors who rendered an additional 21 of the services provided us
                          with records that did not substantiate that any service was rendered on
                          the date claimed. Based on these findings, we estimate that Medicare
                          may have allowed approximately $27 million in 2001 for undocumented
                          chiropractic services. Although some cases of missing documentation
                          may be attributable to billing errors (e.g., putting the wrong date on the
                          claim form), others may represent services not rendered. In any case,
                          claims for services that lack sufficient documentation to show that care
                          was provided do not meet the requirements of section 1833(e) of the Act.



Supporting documentation for chiropractic              Separate from the completely
  services rarely met all Medicare Carriers            undocumented services previously
                                                       discussed, nearly 94 percent of chiropractic
                     Manual requirements
                                                       services lacked some or all of the
                          supporting documentation that section 2251.2 of the Manual requires.
                          The lack of one or more of these elements did not automatically lead us
                          to conclude that a service was noncovered, although these
                          determinations were often related. For example, even if each visit did
                          not include a history and physical, which is required by
                          section 2251.2 of the Manual, the service rendered on that day was not
                          automatically deemed to be medically unnecessary by the chiropractic
                          reviewers. Therefore, we did not include lack of supporting
                          documentation as a subcategory of “noncovered” in the first finding, and
                          we do not project an improperly allowed amount merely related to
                          deficiencies in supporting documentation.


             FIGURE 3
    Many services do
   not meet Medicare
                                                  Improper
                                                                                                                                            No diagnosis
     requirements for                            evaluation
                                                                                                                                                29%
        documenting a                                8%                                              Diagnosis not
          subluxation.                                                                                subluxation
                                                                                                          4%

                               No evaluation
                                                                                                                                             Subluxation
                                   26%
                                                              Proper                                                                          diagnosis
                                                            evaluations                                                                          67%




                          Source: Medical Review of Year 2001 Claims by Practicing Chiropractors

        OEI-09-02-00530   CHIROPRACTIC SERVICES    IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S    10
                                                                                      Report Template Version = 03-01-05_rev.07




F   I N D I N G        S


                      Approximately 34 percent of services were not supported by an
                      evaluation of the patient that met the Manual’s requirements for
                      documenting a subluxation. In fact, there was no evaluation at all in
                      the medical record for 26 percent of services; the remaining 8 percent
                      were supported by tests that did not meet the requirements established
                      in the Manual. Furthermore, more than one-third of “proper”
                      evaluations—those meeting Medicare rules for demonstrating the
                      presence of a subluxation—resulted in no diagnosis (29 percent) or a
                      diagnosis other than subluxation of the spine (4 percent).

                      Though a documentation requirement, chiropractors infrequently
                      developed treatment plans for their Medicare patients. Just 28 percent
                      of chiropractic services were provided as part of a written plan of care,
                      and only 23 percent of those plans included specific treatment goals and
                      objective measures to evaluate progress towards those goals. The
                      absence of specific goals was a strong indicator of unnecessary care; only
                      14 percent of services associated with specific, written goals were
                      medically unnecessary compared to 61 percent of those without written
                      goals.
                      Though infrequently evaluated for them, Medicare beneficiaries rarely
                      present contraindications to chiropractic treatment.
                      Chiropractors do not routinely evaluate patients for conditions
                      mentioned in the Manual, such as severe demineralization of the bones
                      or spinal malignancies, which could contraindicate spinal manipulation.
                      We found that 66 percent of all chiropractic services were not preceded
                      by an evaluation sufficient to detect such contraindications. Although
                      potentially compromising quality of care, we found no cases where this
                      omission led to complications, and only 21 percent of the evaluations
                      that were conducted revealed the presence of even a relative
                      contraindication. In 18 percent of these cases (1 percent overall), our
                      reviewers believed that the dangers presented by the beneficiary’s
                      condition outweighed the potential benefits of chiropractic treatment.



       Lack of medical necessity is directly           When chiropractic care extends beyond
                                                       12 treatments in a year, it becomes
                 related to service volume
                                                       increasingly likely that individual
                      services are medically unnecessary. As shown in Figure 4 (next page),
                      services provided among the first 12 in a course of treatment to a
                      particular beneficiary by the same chiropractor were approximately
                      50 percent likely to be medically unnecessary. That likelihood increased

    OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   11
                                                                                                                    Report Template Version = 03-01-05_rev.07




      F    I N D I N G              S


                                  to approximately 67 percent for services between the 13th and 24th and
                                  to 100 percent for services beyond the 24th. In addition, these medically
                                  unnecessary services are more likely to be maintenance in nature at
                                  higher service volumes.

               FIGURE 4                                          1
Higher-volume services
  are more likely to be                 Proportion medically
                                           unnecessary         0.75
medically unnecessary,
            particularly
           maintenance.                                         0.5


                                                               0.25


                                                                 0
                                                                               1 - 12                           13 - 24                         25 or higher
                                                                               Service number (in course of treatment)
                                                                        Maintenance                   Other medically unnecessary
                                   Source: Medical Review of Year 2001 Claims by Practicing Chiropractors

                                  Given the link between medical necessity and service volume, reviewing
                                  services that exceed a certain volume threshold could result in
                                  significant savings. Figure 5 shows the proportion of all services beyond
                                  specific thresholds that were medically unnecessary and the projected
                                  savings if carriers had identified and disallowed these services. See
                                  Appendix A for further explanation of Figures 4 and 5.
                             1




              FIGURE 5                                                                                                                                        100%       100%
     Lower frequency                                                                                                                                96%
                            0.9




                                                                                                                              94%        93%
                                                                                                        90%
     thresholds would                                                                        87%
                                                                                                                   90%
                                                                                  85%
                            0.8




                                                                         85%
      have resulted in
                                   77%                            78%
  greater savings, but                                 75%
                            0.7




          captured more     0.6




          covered care.     0.5
                                    $78

                                                         $64




                            0.4
                                                                  $59

                                                                          $52

                                                                                   $48

                                                                                              $47

                                                                                                         $43




                            0.3
                                                                                                                    $43

                                                                                                                               $35

                                                                                                                                          $31

                                                                                                                                                     $29

                                                                                                                                                                $26

                                                                                                                                                                              $26




                            0.2




                            0.1




                              0




                                    12                   13       14      15       16         17       18    19                20         21         22         23            24
                                                                                                   Threshold
                                                                              i
                                                                 Projected savngs if frequency edti had been set at this level (in millions)
                                                                 Proportion of servces
                                                                                   i   above threshold that were medcally
                                                                                                                    i     unnecessary

                                  Source: Medical Review of Year 2001 Claims by Practicing Chiropractors


          OEI-09-02-00530         CHIROPRACTIC SERVICES                     IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S         12
                                                                                           Report Template Version = 03-01-05_rev.07




F   I N D I N G 
S


                         Carriers and private plans commonly use frequency edits to limit utilization
                         and limit improper payments.
                         Medicare carriers and private Federal Employee Health Benefits
                         (FEHB) plans often manage chiropractic utilization through frequency
                         controls, which are based on the number of adjustments provided.
                         These frequency-based controls generally fall into one of two categories:
                         soft caps (also called frequency edits) and hard caps. With either type of
                         cap, the payer determines the number of services it will routinely allow
                         during a specified time period, usually 1 year. The payer tracks the
                         number of services each patient receives and generally pays all claims
                         up to this frequency threshold without question. Payers that use soft
                         caps suspend payment for any services that are billed beyond the
                         threshold and request additional documentation from the chiropractor.
                         If the documentation demonstrates that continued treatment is
                         medically necessary, the claims are paid. Payers that use hard caps do
                         not pay for services beyond the established frequency threshold, even if
                         they are medically necessary.

                         Fourteen of nineteen carriers (74 percent) currently use soft caps as
                         their primary means of limiting inappropriate payments, and none use
                         hard caps. Individual carriers decide if they want to use the caps and
                         also establish their own frequency thresholds. Historically, most
                         carriers imposed a frequency threshold of 12 visits on chiropractic
                         services. Due, at least in part, to complaints from chiropractors who
                         believed the 12-visit limit had become a de facto hard cap, many
                         carriers have raised their thresholds or eliminated them altogether.
                         Figure 6 shows the frequency thresholds currently employed by carriers
                         and the distribution of these controls among the States.13

                      Figure 6: Frequency Edits Used by Medicare Carriers

                      Frequency                12 or fewer                13 to 24                       More than 24                   No frequency
                      threshold                services                   services                       services                       edit
                      Number of carriers
                                                       3                              8                              6                               6
                      using threshold
                      Number of States
                      with threshold                   4                             18                             12                               22

                      Source: Carrier Interviews Conducted by Office of Evaluation and Inspections Analysts in 2003



                            13 Some carriers serve more than one State and use different thresholds in each.
                         Similarly, some States are served by multiple carriers, each with its own limit. In such
                         instances, the carrier or State is counted once in each category into which one of its edits
                         falls. “States” include the District of Columbia, Puerto Rico, and the U.S. Virgin Islands.



    OEI-09-02-00530      CHIROPRACTIC SERVICES     IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S        13
                                                                                          Report Template Version = 03-01-05_rev.07




F   I N D I N G 
S


                         In contrast to Medicare carriers, all but one of the FEHB plans that use
                         frequency-based controls to limit chiropractic utilization impose hard
                         caps. Instead of capping the number of services, some FEHB plans limit
                         the total dollar amount they will pay for chiropractic services or the
                         duration of care. In addition, many FEHB plans do not offer any
                         chiropractic coverage, and others require prior authorization or a
                         referral from a medical physician before they will pay for care. Others
                         have no controls other than a member co-payment. Figure 7 shows the
                         controls used by the 132 FEHB plans listed on the Office of Personnel
                         Management’s Web site.

                      Figure 7: Controls on Chiropractic Services Used by FEHB Plans

                      Type of       No             Co-pay               Prior                  Freq. cap             Financial             Duration
                      control       coverage       only                 auth. or                                     cap                   cap
                                                                        referral
                      Number
                      of plans          20             36                      26                    36                      8                      6

                      Source: Year 2003 FEHB Brochures Accessed through http://www.opm.gov/insure/03/html/blinks.asp

                         Carriers support a national policy on frequency limits.
                         At least six carriers would like CMS to develop and enforce a national
                         frequency edit or a hard cap on chiropractic services.14 One carrier
                         noted that when the 12-visit thresholds were nearly ubiquitous,
                         chiropractors generally accepted them; however, when some carriers
                         changed or eliminated their thresholds, other carriers were pressured
                         by chiropractors in their jurisdictions to follow suit.

                         Although generally opposed to frequency-based controls, the provider
                         community has previously accepted the idea of a national frequency cap.
                         The American Chiropractic Association expressed support for a national
                         cap in an October 21, 1999, letter to the Director of the Office of Clinical
                         Standards and Quality at the Health Care Financing Administration
                         (currently CMS). Based on the recommendations of a representative
                         panel of chiropractors, the letter states that “[a threshold of 18 services]
                         reflects the consensus of the chiropractic profession” and is clinically
                         relevant.15



                            14 We did not ask carrier staff their opinions on a national frequency edit; these six

                         volunteered this opinion when asked for their general comments about the Medicare
                         chiropractic benefit.
                           15 Specifically, the panel supported an “18 + 6” utilization review parameter where a
                         threshold of 18 services would be used as a soft cap and 24 as a hard cap.



    OEI-09-02-00530      CHIROPRACTIC SERVICES    IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S       14
                                                                                        Report Template Version = 03-01-05_rev.07




  F   I N D I N G        S



Carrier controls to prevent overutilization are            All 19 carriers have mechanisms in
                                 inconsistent              place to prevent and recoup improper
                                                           chiropractic payments. Controls may
                        include pre-payment edits that suspend or deny claims based on
                        information from the submission, as well as pre- or post-payment
                        medical review. Every carrier denies claims from chiropractors for
                        noncovered CPT codes and claims for chiropractic CPT codes from non-
                        chiropractors. In addition, every carrier except one uses computer edits
                        that suspend or deny claims with improper diagnosis codes. As
                        previously discussed, 15 carriers use frequency edits to control
                        utilization. Some carriers use chiropractors, medical physicians, or,
                        more commonly, nurses to conduct medical review before they pay
                        claims that have been flagged through frequency edits. Other carriers
                        conduct a non-medical claims audit of flagged claims. A number of
                        carriers indicated they automatically deny claims that exceed their
                        frequency threshold unless the claim meets certain criteria, such as
                        having a particular diagnosis code.

                        Carriers vary widely in the resources they devote to monitoring
                        chiropractic utilization. For example, the number of pre-payment
                        claims reviews conducted by carriers averaged from zero at some
                        carriers to approximately 85,000 per year at one large carrier. Some of
                        the less active carriers depend entirely on diagnosis-based edits to
                        identify improper claims, meaning that as long as a claim is submitted
                        with a covered diagnosis code, it will be paid. The use of post-payment
                        reviews is equally inconsistent. Although most carriers indicated they
                        might conduct post-payment reviews of chiropractic services, only three
                        provided evidence that any were conducted recently, and one of those
                        had done only two. One large carrier noted that post-payment reviews
                        are now the province of the Program Safeguard Contractors. The
                        variation observed among the carriers may be due, in part, to different
                        philosophies regarding controlling chiropractic claims. For example,
                        some carriers believe that oversight of chiropractic services is not a
                        priority for CMS, given limited budgets and the relatively small amount
                        of money associated with chiropractic services.




      OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   15
                                                                                   Report Template Version = 03-01-05_rev.07




∆
   R E C O M M E N D A T I O N S




                   Based on the volume of noncovered, miscoded, and undocumented
                   services that were paid, we conclude that chiropractic services represent
                   a significant vulnerability for the Medicare program. As more
                   beneficiaries avail themselves of chiropractic care, the amount of money
                   lost to medically unnecessary, non-manipulation, and undocumented
                   services is likely to increase unless appropriate controls are instituted.

                   Therefore, we recommend that CMS:
                   Ensure that chiropractic services comply with Medicare coverage criteria.
                   Given the strong correlation between the number of services a
                   beneficiary receives and the likelihood a service is not medically
                   necessary, CMS should implement a national frequency edit to target
                   high-volume services—which are especially likely to be medically
                   unnecessary—for medical review. Carriers or Program Safeguard
                   Contractors should then obtain and review the records of beneficiaries
                   targeted by the frequency edit in order to identify and collect
                   overpayments.

                   Many services that would not exceed even a very low frequency
                   threshold were medically unnecessary, undocumented, not spinal
                   manipulation, or miscoded. Therefore, in addition to whatever
                   frequency control is chosen, CMS should require that its carriers or
                   Program Safeguard Contractors conduct routine service-specific reviews
                   of chiropractic services. When conducting reviews of individual
                   providers, it is imperative that reviewers collect the entire records
                   associated with services selected as part of a service-specific review.
                   Several records we reviewed would have appeared legitimate for any
                   one particular day of service; however, that day’s documentation was
                   repeated verbatim for the entirety of the patient’s treatment.
                   Require that carriers educate chiropractors on Medicare Carriers Manual
                   requirements for supporting documentation.
                   Many chiropractors seem unaware of the specific documentation
                   requirements outlined in section 2251.2 of the Manual. CMS should
                   address this lack of knowledge by directing its carriers to issue provider
                   bulletins reminding chiropractors of their responsibilities. Due to the
                   relationship we found between the lack of treatment plans and
                   medically unnecessary services, the bulletins should especially
                   emphasize this requirement.



 OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   16
                                                                                      Report Template Version = 03-01-05_rev.07




R   E C O        M M E N D A T           I O N               S


                      In addition to these recommendations, we have forwarded information
                      on the noncovered, miscoded, and undocumented services identified in
                      our sample to CMS for appropriate action. As mentioned in the
                      methodology, the results of our review of the 400 sampled services were
                      not shared with the Medicare carriers who paid the chiropractors for
                      these services.


                      AGENCY COMMENTS
                      In its comments on our draft report, CMS agreed with our findings and
                      recommendations. The agency has clarified its chiropractic coverage
                      criteria and indicated that most carriers are taking steps to reduce
                      chiropractic error rates, including targeted educational efforts and
                      service-specific medical reviews. In addition, as of October 1, 2004,
                      CMS has required that chiropractors use the –AT modifier to indicate
                      that a service is not maintenance. Only claims to which this modifier is
                      attached are payable. The full text of CMS’s comments begins on
                      page 19.


                      OIG RESPONSE
                      We appreciate CMS’s response to our report, and support the steps the
                      agency is currently undertaking to help prevent paying for noncovered,
                      miscoded, and undocumented services.

                      CMS noted in its comments that while this OIG study projected that
                      67 percent of the chiropractic services allowed by Medicare did not meet
                      program requirements, CMS’s Comprehensive Error Rate Testing
                      (CERT) program identified a claims paid error rate of approximately
                      16 percent for claims submitted by chiropractors in 2002. CMS further
                      noted that differences in the methodological approaches accounted for
                      the significantly different rates. In particular, CMS recognized that
                      OIG’s review of a beneficiary’s claims during their entire course of
                      treatment enabled us to determine that approximately 40 percent of all
                      chiropractic services are attributable to maintenance care, and thus are
                      not covered under Medicare. In contrast, the CERT paid claims error
                      rate is based on a review of a single claim, which limits its ability to
                      detect uncovered maintenance costs.

                       We agree with CMS and would like to emphasize that the purpose of
                      this inspection was to determine the underlying causes of, and potential
                      ways to reduce, vulnerabilities associated with payments for
                      chiropractic services. It was not designed to reproduce, or to review, the

    OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   17
                                                                                      Report Template Version = 03-01-05_rev.07




R   E C O        M M E N D A T           I O N               S


                      CERT paid claims error rate. In addition to the different
                      methodological approaches that are noted above, the CERT used 2002
                      data, whereas our data was drawn from 2001. Hence, our results
                      cannot be compared directly to the CERT program results.

                      Furthermore, chiropractic payment errors, while a significant
                      vulnerability, contribute only minimally to the overall CERT national
                      paid claims error rate. Medicare allowed approximately $191 billion for
                      Medicare fee-for-service claims in 2001. Chiropractic services accounted
                      for $500 million, or 0.26 percent of this amount. Therefore, the
                      chiropractic-specific error rate has little influence on the overall CERT
                      error rate for fee-for-service claims.

                      Given that Medicare payments for chiropractic services have continued
                      to increase since 2001, the need for a more effective way to eliminate
                      inappropriate maintenance payments is crucial. However, we recognize
                      that it may be impractical for the CERT program to expend its limited
                      resources to collect the extent of documentation used in our review.
                      Therefore, in the future, CMS may wish to conduct additional studies
                      outside the scope of the CERT program to determine cost-efficient ways
                      to address chiropractic payment errors.




    OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   18
                                                                                  Report Template Version = 03-01-05_rev.07




∆   A G E N C Y              C O M M E N T S




OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   19
                                                                                    Report Template Version = 03-01-05_rev.07




A G   E N     C Y     C O     M M E N T                    S 





 OEI-09-02-00530    CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   20
                                                                                  Report Template Version = 03-01-05_rev.07




∆   A P P E N D I X                  ~         A


     Detailed Methodology
                  We defined our universe for the review as allowed services provided in
                  2001 by chiropractors (specialty code 35). Due to an internal processing
                  error that was only discovered during the analysis phase, our actual
                  universe was limited to 91 percent of such services.16 From this
                  universe of 14,497,406 services (with a total allowed amount of
                  $457,444,574.32), we selected a simple random sample of 400.

                  Next, we matched the Unique Physician Identification Number (UPIN)
                  and carrier-assigned provider identification number of the chiropractor
                  who submitted the claim to the national UPIN registry in order to
                  obtain the chiropractor’s name and mailing address. A significant
                  number of claims failed this match. We first attempted a manual
                  Internet search for these unmatched UPINs; if unsuccessful, we
                  telephoned carrier staff in order to obtain a valid name and address.

                  After obtaining mailing addresses, we sent letters to each chiropractor,
                  requesting medical and billing records for each beneficiary associated
                  with that doctor. The letter requested that the chiropractor include all
                  records for the beneficiary, not just those for services rendered in 2001.
                  A significant number of these initial letters were returned as
                  undeliverable. We used Internet searches or called carriers to obtain
                  correct addresses. Ultimately, we were unable to contact two
                  chiropractors, representing one sample service each; we removed these
                  two from consideration.

                  If we did not receive a response within approximately 5 weeks, we sent
                  a second letter to the initial address. The second mailing also revealed
                  a significant number of incorrect addresses, which we resolved in the
                  manner described above. If we received no response after the second
                  mailing, we obtained phone and/or fax numbers from the Internet or the
                  carriers and telephoned or faxed the nonrespondents. Although we
                  managed to contact every chiropractor except the two mentioned above,
                  three did not provide records, and one sent records after the study
                  period had been closed for more than a month.


                     16 The original data was contained in five compressed files. We decompressed these files

                  and merged them into a single population data set. However, one of the smaller files failed
                  to read into our population data set correctly, and therefore, contributed far fewer claims
                  than expected to the population. Most of the omitted claims were for beneficiaries with
                  Medicare numbers associated with the Railroad Retirement Board or the State of
                  Massachusetts.



OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   21
                                                                                      Report Template Version = 03-01-05_rev.07




A   P   P E N D       I X      ~      A


                      We organized each record and placed it into a folder to which the
                      beneficiary’s 2001 claims history was appended. We sent these folders
                      to our medical review contractor, who forwarded them to chiropractic
                      consultants for review. Each consultant/reviewer is a currently
                      practicing chiropractor with experience in reviewing Medicare claims.
                      We had previously developed a review instrument based on Medicare
                      coverage criteria with the assistance of the medical review contractor.
                      Before beginning the review, we met with the chiropractors to finalize
                      the review protocol and to orient the reviewers to its use. The review
                      instrument solicited information about the beneficiary’s chiropractic
                      treatment as a whole and about the individual sampled service in
                      particular; the majority of the findings are based on the individual
                      service questions.

                      After reviewing the records, the chiropractors returned the completed
                      instruments to the contractor for quality control, who then forwarded
                      them to us for entry into a data set. All analysis of the medical reviews,
                      which included merging our data with census and other outside sources
                      of information, was conducted using the statistical software packages
                      SAS and SUDAAN.
                      Note on factors associated with medical necessity. We tested medical
                      necessity as the response variable in a logistic regression with the
                      following factors: the number of previous services allowed for the
                      chiropractor-beneficiary combination in 2001, the absence of a
                      treatment plan with stated goals, the presence of CPT code 98941 on the
                      claim, the service being in the first month of treatment, and the
                      urban/rural characteristics of the county where the service was billed.
                      The number of prior services, the presence of CPT code 98941, and
                      being in the first month of treatment were significant at the 95 percent
                      confidence level.
                      Note on Figures 4 and 5. To obtain the estimates for the proportions of
                      chiropractic services that were not medically necessary for Figures
                      4 and 5, we first determined the position of the sample service in the
                      beneficiary’s series of treatments. That is, we determined, for each
                      claim, the number of services that had been previously allowed for that
                      chiropractor-beneficiary combination in 2001. For Figure 4, we then
                      grouped the sample services into the categories shown in Figure 4
                      (1 to 12 services, 13 to 24 services, 25 or more services) depending on
                      the number of prior services allowed and determined the proportion of
                      services in each category that were medically unnecessary. For Figure


    OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   22
                                                                                      Report Template Version = 03-01-05_rev.07




A   P   P E N D       I X      ~      A


                      5, on the other hand, we determined the proportion of all services
                      exceeding each threshold analyzed that were medically unnecessary.
                      Hence, the numerator (medically unnecessary services) for each
                      estimate in Figure 5 includes all services from the “25 or more” group
                      from Figure 4, since the highest threshold analyzed was 24 services.




    OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   23
                                                                                                        Report Template Version = 03-01-05_rev.07




∆
   A P P E N D I X                                        ~        B


      Further Discussion of the Effects of Removing the X-ray
      Requirement

                     National Claims History data strongly suggest that removing the X-ray
                     requirement spurred an increase in the number of beneficiaries
                     receiving chiropractic care. As shown in Figure A-1, the proportion of
                     Medicare beneficiaries using chiropractic services grew fairly steadily
                     from 4.6 percent in 1994 to 4.8 percent in 1999, at a rate that
                     approximately mirrored that in Americans less than 65 years old.17 In
                     2000, the Medicare proportion jumped to 5.5 percent, roughly 2.5 times
                     the combined increase from the previous 5 years, with no evidence that
                     this change was reflected in the under-65 population. Medicare did not
                     issue any policy changes other than removal of the X-ray requirement,
                     or experience any shifts in its population (such as changes in the
                     proportion of beneficiaries in rural areas) that would account for this
                     increase.

                   FIGURE A-1
                   Medicare chiropractic utilization grew
                   more rapidly after 1999 compared to the
                   general population.

                                                7%

                                                6%
                   Percent using chiropractic




                                                5%

                                                4%

                                                3%

                                                2%

                                                1%

                                                0%
                                                     1994   1995     1996            1997          1998          1999           2000          2001          2002

                                                                    Medicare beneficiaries
                                                                    Under-65 population (with standard errors)
                                                                    Medicare trend (as established 1994 - 1999)
                                Source: National Claims History Part B 1 Percent Files, 1994 to 2002 and
                                Agency for Healthcare Research and Quality Medical Expenditure Panel
                                Survey, 1996 to 2001

                       17 The under-65 population data from the Medical Expenditure Panel Survey is only
                     available for the years displayed.



 OEI-09-02-00530     CHIROPRACTIC SERVICES                      IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S    24
                                                                                                   Report Template Version = 03-01-05_rev.07




A   P   P E N D       I X                    ~    B


                      We used a commercial time series program called ITSM 2000 to develop
                      an auto-regressive moving average model of the proportion of
                      beneficiaries who received chiropractic services in each month from
                      January 1994 to December 1999. Using this model, we forecast this
                      proportion and produced the upper bound of a 90 percent confidence
                      interval for each month from January 2000 to December 2002. As
                      shown in Figure A-2, the actual proportion of beneficiaries who received
                      chiropractic services surpasses the 90 percent confidence upper bound of
                      our projection in nearly every month since the removal of the X-ray
                      requirement.

                      FIGURE A-2
                      Elimination of the X-ray requirement coincides
                      with greater-than-expected growth in the
                      proportion of beneficiaries who receive
                      chiropractic services.
                                      0.04




                                     0.035
                        Proportion




                                      0.03




                                     0.025




                                      0.02
                                         Jan-94   Jan-95       Jan-96           Jan-97           Jan-98          Jan-99          Jan-00          Jan-01      Jan-02

                                                                          Actua l             Predicted               90% Confidence Upper Bound


                         Source: National Claims History Part B 1 Percent Files, 1994 to 2002




    OEI-09-02-00530   CHIROPRACTIC SERVICES                IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S            25
                                                                                                                  Report Template Version = 03-01-05_rev.07




A   P   P E N D       I X                              ~             B


                      As shown in Figure A-3, the number of “new” chiropractic beneficiaries
                      (those who had never previously received a chiropractic service in
                      Medicare), increased dramatically after the removal of the X-ray
                      requirement, from approximately 441,000 beneficiaries in 1999 to
                      565,000 beneficiaries in 2000.18 One possible explanation stems from
                      Medicare’s inability to pay for diagnostic tests ordered or performed by
                      a chiropractor. Although a radiologist or medical physician may order
                      and be reimbursed for tests on a patient referred by a chiropractor, the
                      cost for X-rays may be assumed by the chiropractor or passed on to the
                      beneficiary in many cases. Prior to January 2000, many chiropractors
                      and beneficiaries may have been unwilling to shoulder the cost for
                      X-rays, and hence the requirement may have served as a cost barrier to
                      covered chiropractic care.

                      FIGURE A-3
                      The number of “new” chiropractic
                      beneficiaries increased dramatically after
                      removal of the X-ray requirement.

                                                               700
                            "New" Chiropractic Beneficiaries




                                                               600

                                                               500
                                    (in thousands)




                                                               400

                                                               300

                                                               200

                                                               100

                                                                0
                                                                         1996          1997              1998             1999              2000              2001          2002
                        Source: National Claims History Part B 1 Percent Files, 1994 to 2002




                        18 We used the 1 percent National Claims History files from 1994 to 2002 to formulate
                      the numbers of “new” beneficiaries. Therefore, it is possible that some of the “new”
                      chiropractic beneficiaries in each year shown had actually received chiropractic services
                      sometime prior to 1994.



    OEI-09-02-00530   CHIROPRACTIC SERVICES                               IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S      26
                                                                                                    Report Template Version = 03-01-05_rev.07




         ∆          A P P E N D I X                    ~         D



Significance Tests for Selected Comparisons

                                          Comparison                                                                                      Test Result         P-value

Medically unnecessary services by number of      12 or fewer services versus 13 to 24 services                                                   -2.45         0.0146
services, pairwise t-tests
                                                 12 or fewer services versus more than                                                          -17.87         0.0000
(Bonferroni threshold = 0.016667)                24 services

                                                 13 to 24 services versus more than                                                              -5.17         0.0000
                                                 24 services

Medically unnecessary services by presence of a treatment plan with specific goals,                                                             24.91          0.0000
chi-square test




               OEI-09-02-00530      CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   30
                                                                                   Report Template Version = 03-01-05_rev.07




∆
   A C K N O W L E D G M E N T S

                   This report was prepared under the direction of Paul Gottlober,
                   Regional Inspector General for Evaluation and Inspections in
                   the San Francisco regional office, and Deborah Harvey, Assistant
                   Regional Inspector General. Other principal Office of Evaluation and
                   Inspections staff that contributed include:

                   Scott Hutchison, Team Leader
                   Michael Henry, Program Analyst

                   Cindy Lemesh, Program Analyst

                   Cheryl Dotts, Program Assistant

                   Stephanie London, Program Specialist

                   Tricia Davis, Director, Medicare and Medicaid Branch



                   Technical Assistance

                   Rob Gibbons, Program Analyst

                   Scott Horning, Program Analyst

                   Linda Moscoe, Program Analyst

                   Barbara Tedesco, Mathematical Statistician



                   We would like to thank our medical review contractor and the
                   individual chiropractors who performed the review, as well as the
                   carrier staff who participated in our interviews and assisted us in
                   obtaining contact information for the chiropractors whose services were
                   selected for review.




 OEI-09-02-00530   CHIROPRACTIC SERVICES   IN THE   M E D I C A R E P R O G R A M : P A Y M E N T V U L N E R A B I L I T Y A N A LY S I S   31
